                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS                          '1

                                              CLOSEOUT MEMORANDUM

  Case Number: 1-03-01-0002                                                     11                    'I
                                                                                             Page 1 of 1



           The NSF Program ~irector'for Laser Interferometer Gravitational Wave Observatories (LIGO),
           notified OIG that the LIGO Hanford, WA, site, which is operated by a university: informed him
           that an employee SUBJECT)^ admitted to having forged five LIGO checks, totaling $6,000.

           OIG investigation revealed that when SUBJECT (responsible for LIGOIHanover's petty cash
           fund account) was on vacation, a temporary employee found a suspicious check while filing
           invoices. The employee found two checks that were both attached to copies of the same invoice.
            It appeared the invoice had been paid twice. Upon reviewing copies of the cashed chedks from
           the bank, the site manager found that one of the checks had been altered and was made payable to
           SUBJECT. The signature on the back of the check appeared to be SUBJECT'S, indicating she
           had cashed the check herself. The company that issued the invoice cashed the other chzck.
           Subsequently, SUBJECT admitted to the university's Employee Relations, to forging five checks
           totaling $6,000.

           The OIG investigation revealed that SUBJECT had stolen a total of $32,45 1.91 of grani funds
           through forged checks, ATM-card charges, and cash withdrawals.

           During an interview by the OIG, SUBJECT admitted to stealing the $32,451.91. SUBJECT
           stated she stole the funds because she had a gambling problem and suffered from depression.

          At OIG's request, the university restored $40,889.40 ($32,451.91 + 26% indirect cost rate) to the
          NSF award.                                                                             !
          SUBJECT was indicted through the U.S. Attorney's Office for the Eastern District of
          Washington State, and subsequentlypled guilty to violations of Title 18 U.S.C. 5s 666 and 982,
          Theft Concerning Programs Receiving Federal Funds and Forfeiture Allegation, respectively.
          SUBJECT was sentenced to 30 days in jail, followed by 150 days of home confinement, 3 years
          of supervised release and ordered to pay restitution to the university for $32,451.91.

          OIG recommended civil debarment of SUBJECT for 2 years. NSF concurred with OIG's
          recommendation and issued the debarment on April 11,2005.

          Accordingly, this case is closed.                                                      j/




1
INSF OIG Form 2 (11/02)
        ,
             6-                                                                                                                                 1
                                                                                                                                         FILED INTHE
                                                                                                                                     US. 0lSTRlCrCOUKi
                                                                                                                                        R ~ OF W~SHNWN
                                                                                                                                 E A ~ DISTRICT
                                         -
V
    3           AO 2 4 5 B e e e t 1 Judnment
                                            I ooCase

                                                  United States District Court                                                                  ] JUN 2 4 20061
                                                                                                                                                d

                                                     Eastern District of Washington                                                        .IAM,ES R. LASEN, CLERK
                                                                                                                                                /I                      DEPUR'
                          UNITED STATES OF AMERICA                             JUDGMENT IN A                   CWMINALCAY~E                          'ILAND, WASHINGTON

                                             V.                                (For Offenses Committed On or After ~overnbfr 1,1987)
                                     Sill ]LaBerry
                                                                               Case Number:      2: 03CR06043-001

                                                                               Alex B. Hernandez, 111                              ,   -        1         -
                                                                               Defendant's Attorney
                                                                                                           t
                                                                                                           I
                                                                                                                   .-:,
                                                                                                                     f
                                                                                                                             .(I       e
                                                                                                                                                I
                                                                                                                                                I




                THE DEFENDANT:                                                                                 I                                              I     :
                     8
                   x pleaded guilty to count(s): I and 2 of the Indictment
                        pleaded nolo contendere to counts($)
                        was found guilty on count(s)
                                                                                                        r
                                                                                                               I         L       .
                                                                                                           which was accepted by the court,
                                                                                                          .-.        after a ptea or'n'at-Qliity.
                                                                                                                                                              -
                Accordingly, the court has adjudicated that the defendant is guilty of the Pollowing offens&):                       I
                                                                                                                          Date Offense                Count
                    & Section            Nature                                                                           ConcIud&              1     N~rnbsrlsl



                                                                                                                                                I
            1s U,S.C. 4 666         Theft Concerning P r o e m s Receiving Federal Funds                                  1213 1/02                   1
            18 U.S.C. 5 982         Forfeiture Allegation                                                                 1213 1/02




                                                                                                                   Osee mntinuahon page
                       The defendant is sentenced as provided in pages 2 thmugh -
                pursuant to thc Sentencing Reform Act of 1984.
                                                                                7 of this judgment. The sentenceiis imposed
                                                                                                                1
                                                                                                                                                i
                                                                                                                                                I
                        The defendant has been found not guilty on counts(s)                                                                    '1                and
                is discharged as to such count($).                                                                                              1I
                        Cou~t(s)                                                             is dismissed on the motion ofithe United Stater.
                                                                                                                                                11
                IT IS FURTHER ORDERED that the defendant shall notify the United States Attorney for this district within 30 days
                of any change of name, residence, or mailing address until all fines, restitution, costs, and special assessments
                imposed by this judgment are fully paid. If ordered to pay restitution, the defendant shall notify the court apd United
                States Attorney of any material change in the defendant's econornlc circumstances.
                                                                                                                                                II


                                                                                                      J%g%                                  p   I/
                Defendant's Soc. Sec. No.:

                Defendant's Date of Birth:

                Defendant's USM No.:               . ~ T p E r nAT^^^ cap,,
                                                                               Signature of Judicial OWicer
                                                                                       The Honorable Edward
                                                                                                                                                I
                                                                                                                                            F. Shea
                                                -'JAMES R M S E N , Clerk


                                                       -mf                             ,
                Defendarlt's Residence Address;      unhed S-       ~ i ~court
                                                                            t ~Name
                                                                                  ~ and
                                                                                     t Title of Judiclal Officer                                I
                                                                                                                                                I
                                                                              h'n*n           Judge, U.S/ District C o p                        I
                                                       By
            /

                Defendant's Mailing Address:
                    same as above                                                                      I
                                                                                                      if
                                                                                                                             C
               JUL. 1.2004                      4: 15PM       US ATTORNEY Y A K ~ M ~
          ..
"   $
,   I ,            a       ,




          .
               *
                       I       '




              AO 245B (Rev. 3/01)Sheet 2 lm~risonment-
              CASE NUMBER: 2:03CR06043-001                                                                                        ~ u d p t - t !-Page   2 of   7
              DEFENDANT: Jill L. Berry                                                                                                      S
                                                                                                                                            'I

                                                                               IMPRISONMENT
                       The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
              total tern of 30 day(s)




                                   The court makes the following recommendations to the Bureau of Prisons:                                  )I

               Defendant shall participate in the BOP Inmate Financial Responsibility Propram.              'I

               Court recommends placement of defendant in the Facility at Sea-Tac, Washington or a local facility.




                                   The defendant is remanded to the custody of the United States Marshal.


                                   The defendant shall surrender to the United States Marshal for this dlstrict:
                                      at             on
                                      as notified by the United States Marshal.


                                   I h e defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons;
                                   U   before              on,
                                       as notified by the United States Marshal.
                                   @   as notified by the Probation or Pretrial Services Officer,

                                                                                      RETURN
              I have executed this judgment as follows:




                                   Defendant delivered on
                                                                                                                                                 I
                                                                                          to

              at                                               .with a certified copy of this judgment




                                                                                                                          UNITED STATES MARSHAL



                                                                                                                   BY
                                                                                                                              Deputy U.S! Marshal
                                                                                                                                             )I
                                                                                                                                                 I
                                                                                                                                            11
                                                                                                                                   N0.976                     P.4/13
              . Y JI;IL.       1.2004 ' 4 : 15PM          US FITTORNEY YFIKIMA
.,
  ,
      %

      I   ,      .   '     a                                                                                                                /I
                                                                                                                                            lj


                         m-245B(Rev. 31011 S h a e t 3 l s e u Release
                         CASE NUMBER: 2:03CR06043-001                                                                               ludsrnan; Page 3 of 7
                         DEFENDANT Jill k Berry
                                                                                                                                            ;I
                                                                                                                                            'I


                                                                         SUPERVISED RELEASE                                                 il
                         Upon release from lwprisonment, the defendant shail be on supewlsed releass for a term of            3   ycar(s)   ji




                                                                                                                                                 1
                                                                                                                              See continuadon page
                         The defendant shall report to the probation office in the district to which the defendant Is released within 72 hours of release from
                         the custody of the Bureau of Prisons.                                                                              1

                                                                                                                                                 /I
                         The defendant shall not commit another federal, state, or local crime.                                                  !i/
                         f he defendant shall not illegally pos=eesa a controlled substance.
                                                                                                                                                 I!
                                                                                                                                                 I
                                                                                                                                                 I
                                                                                                                                                 s
                         For offenses committed on or after September 13,7994:                                                                   :;
                                                                                                                                                 il
                         The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit to oneihrugtest within 15
                         days of release from imprisonment and a1 least two perlodlc drug tests thereafter, as directed by the probation officer.
                                                                                                                                                 /I
                                  The above drug tasting condition is suspended based on the court's delerminat~onThat the defendant poses a low risk of
                         future substance abuse. (Check if applicable.)

                                                                                                                                                  1
                                                                                                                                     I
                                  The defendant shall not possess a firearm. destructive device, or any other dangerous weapon.
                                                                                                                                              ~i
                         If this judgment imposes a fine or a restitution obligation, it shall be a condition of supenised release that the defendant pay any
                         such fine or restitution that remains unpaid at the commencementof the term of supervised release in accordance with the
                         Schedule of Payments set forth in the Criminal Monetary Penalties sheet of this judgment.                                !I
                                                                                                                                                  /I
                         The defendant shall comply wlth the standard conditions that have been adopted by this court (set fonh below).               he defendant
                         shall also comply with the additional condit~onscn the anached page (if lndlcaled above).


                                                                                                                                                      1
                                                                                                                                                      I
                                                          STANDARD CONDITIONS OF SUPERVISION
                          1) the defendant shall not leave the judicial district without the perrnis4ion of the coun or probat~onofficer:             /
                          2) the defendant shall report to the probat~onofficer and shall submit a truthful and complete written report dithin the ftrst flve
                          days of each month;                                                                                                         1
                          3) the defendant shall answer truthfully all inqulrles by the probatlon officer and follow the instructrons ofthe probatlon officer;
                          4) the defendant shall support his or her dependants and meet other family responsibilities;                                1
                          5 ) the defendant shall work regularlyat a lawful occupation unless excused by the probatlon officer for schooling, tralning or
                          other acceptable reasons;
                          6) the defendant shall notify the probation oflcer at least ten days pnor to any change in residence or employment;
                                                                                                                                                      il
                          7) the defendant shall refrain from excesswe use of alcohol and shall nor purchase, possess, use, distribute, or admfnister any
                          controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physitlan;
                          8) the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
                          9) the defendant shall not associate with any persons engaged In crlminal activity, and shall not associate with any person
                         convloted of a felony unless granted permission to do so by the probat~onofficer;                                      11

                          10) the defendant shall permit a probation oficer b "Isit him or her at any time at home or elsewhere end shall &mil
                         conflscation of any contraband observed ~nplain view of the probation officer;                                         1,I
                          11) the defendant shall notify the probatlon offlcer wrlhln seventy-two hours of being arrested or quest~onedby a law enforcement
                         officer;
                                                                                                                                                          I
                          12) the defendant shall not enter into any agreement to act as an ~nforrneror a special agent of a law enforcement agency without
                         the permission of the court;                                                                                            1
                          13) as directed by the probation officer, the defendant shall notlfythird parties of r i s k that may be occasioned by,the defendanrs
                         crlminal record or personal history or characterist~cs,and shall perm~tthe probation officerto make such notifications and to
                         confirm the defendant's compliance with such notrf~catlonrequirement.
                                                                                                                                                          1
"
L
    ., ...; JJJL.
     I
                    1.2004      4: 15PM         US ATTORNEY Y ~ K I M ~

           b   '
            Continuation Page: Supervised-ReleaseiProbatian
            CASE NUMBER; 2:03CRM043401                                                                                - -
                                                                                                           J u d k n t page   4 of   7
            DEFENDANT; Jill L.]Berry


                                     Continuatjon of Conditions of   a supervised Release      probation

               14. Defendant shall not work for cash and shall provide proof of earnings.

               15. Defendant shall be restricted from.employment as a cashier, or in any other capacity where you are
               responsible for the handling of any cash, checks, creditldebit cards or any other form of currency.

               16. Defendant shall provide the supervising probation officer with access to any requested financial
               information, including authorization to conduct oredit checks and obtain copies of defendant's Federal income
               tax returns. Defendant shall disclose all assets and Liabilities to the supervising probation officer. Defendant
               shall not transfer, sell, give away, or o t h m i s e convey any asset, without the advance approval of the
               supervising probation officer.                                                                     I
                                                ,
               17, Defendant shall not incur any new debt, open additional lines of credit, or enter into any fidncial
               contracts, without the advance approval of the supervising probation officer.                     i
                                                                                                                 !I
               18, Defendant shall be prohibited from all forms of gambling, and shall not enter, frequent, or lie otherwise
               involved with any legal or illegal gambling establishment or activity.                             I




               19. Defendant shall undergo an evaluation and, if indicated, enter into and successfblly complete an
               approved treahent program to deal with gambling issues. Defendant shall contribute to the cost of treatment
               according to defendant's ability, Defendant shall allow full reciprocal disclosure beween the supervising
               probation officer and treament provider.

               20. Defendant shall participate in the home confinement program for 150 days. Defendant shall abide by all
               the requirements of the program, w h i ~ hwill include electronic monitoring or other location verification
               system for the first 30 days of the home confinement program. Defendant shall pay all or part of the costs of
               the program based upon defendant's ability to pay. Defendant is restricted to defmdant's residence at all
               times except for employment, education, religious services, medical, substance abuse, or mentaI health
               treatment, attorney visits, c o w appearances, court-ordered obligations, or other activities as pre-approved by
               the supmising probation officer.

               2 1. Defendant shall compIete a mental health evaluation and follow any treatment recommendations,
               including taking prescribed medications, as recommended by the treatment provider. Defendant shall allow
               reciprocal release of information between the supervising probation officer and treatment provider.
               Defendant shall contribute to the cost of treatment according to def=ndantlsability.
                                                                       $  -.      a-




., ..   ,*
              JIJL. 1.2004
               s
                                         4: 15PM          US QTTORNEY Y ~ K I M ~
6   I
                        .                                                                                                                             i(
                                                                                                                                                      I
                    ,

         ~O.2458
                            S h ~ 5.     -
                            ( k v . 3/01) Judgmqt in &hirial h e
                                    c Pan A Criminal M m r y Pcnaltics                                                                                1,

                                                                                                                                                       I                 -
                                                                                                                                                                 Judmcn~ Pep   5 of 7
         CASE NOMBER: 2: 03CR06043-001                                                                                                                     I)

         DEFENDANI': Jill L,Berry
                                                                 CFUMfNAL MONETARY PENALmS
                 Thc defendant shall pay the following total criminal rnonerary penalties in accordance with thc schedule of payments set fonh on
             Shcet 5, Pan B.
                                       Assessment                                            &Q                                         Rcstjtution
         TOTU                                     $100.00                                                 $0.00                                       $0.00


                   The determination of restirurion is deferred until                    . An Amended Judgmeof          in a Crfmtrral Case (A0 24SC) will be entered
                   afier such determination.

                   Thc defendmt shall make rtnination (including community rcnirution) to the following payes in the amount listed bclow.

                   If the defendant makes a partial paymenr, eachpayce shall receivc sn apptoximstcly ro orrioned ayment, unless s p i f i e d othenvise jn
                   rhe priority order or percmnge payment column below. However, pmuanr to 18
                   in full prior 10 tho United Starts receiving paymcnt.
                                                                                                                      85.8.
                                                                                                             36646. a11 nonfedcral VlRlmS nun be p a d

                                                                                                                                                            Priority Order
                                                                          *Total                              Amount of                                     or Percentage
         Name o f Pa=                                                    Amount fif ID                       Restitution O
                                                                                                                         r&&                                    gfJ!avrnenc




                                                                                                                                                      0see
                                                                                                                                                       Continuation
                                                                                                                                                                , Page
         TOTALS


         [?        If applicable, re3titution amount ordered pursuant to plea agreement

                   The defmdmr shall pay interest on any fine or renitution of more than f2,500, unless rhe fine or rertirvt~onis paid:in full before the
                   fifteenth day after the dare of the judgment, pursuant to 18 U.S.C,4 3612(f). ~ lofl rhe payment options on Sheet 51, Part B may be
                                                                                                                                       11
                   subject ro prnalties for dolinquency and default, pursuant to 18 U.S.C. $3612(g).                                    I
                                                                                                                                                                I
                   The court datermined that the defendant does nor haw the ability ro pay interest, and it is ordered thst:                                    ,,
                                                                                                                                                                1
                    a t h e interea requirement is waived fot rhe                      fine mdlor        0rcrtitution.                                          I
                                                                                                                                                                i
                            rhe intersst requirement for rhe              fine andlor             restitution is modified as follows:


         * Findings forrhe total amount of losses are required under Chs rers 109A, 1LO, 110.4, and 113A of Tirle 18, United Srates Code, for offenses
         commitred on a afku Sep~mbcr13.1994 but befort .%pri123,1!96.
.,   ?   A       J@L   .   1.2004         4 : 1SPM         US ATTORNEY        YAKIMR

             0   B
                                         -
                           (Fkv. 3/01) Judgmcm in II Criminal CpsC
                           S h r S, Pan B Crimibd Menaay P a n ~ t l i ~                                                                     I




                                                                                                                                                                       1
         ?
                                                                                                                                         fudgmurt- Page   6   OF   7
             (!,4SE NUMBER: 2: 03CRo6043-001
             DEFENDANT:Jill L. Berry
                                                                                                                                             I
                                                                                                                                                                       1I
                                                                                                                                                                       1
                                                                                                                                             I

                                                                           SCHEDULE OR PAYMENTS
             Having assessed the defendant's ability to pay, payment of the total criminal rnonctary pcnalrics shall be due as follows:
             A             L    U    ~     ~     of                           due immediately, balance due


                                                                              a E.orbelow; or
                               not later than
                               in acoordvlee w i a C.                 D, or
     .       B             Payrwnt to begin immediately ( m y be combined with C D, or E below); or
             C             Payment in     equal         (e.g., equal, weekly, monthly, quarterly) installments of                       o v e a~ period of
                                          (e.g., monrhs or years), ro commence                 (t.g., 30 or 60 days) ~ f t cthc
                                                                                                                             r datc of this judgment; or

             D             Paymenr in equal         (e.g., equal, weekly, monrhly, quarterly) ~nstallrnentsof                        over a period of
                              week(s) (e.g., months or years), to commence                  (c.g., 30 or 60 days) aftcr rclcasc from imprisonment to ct
                           term of supervision; or
             E             Special instructions regarding the paymenmf criminal moneury penalties:
                                                                                                                                                 I

                 Defendant shall participate in the BOP Inmate Financial Responsibility Program.




             Unless rhe coun has cxprcssly ordered othenvisc in the special instruction above if this jud rncnt imposes a pcnod of im risonment, payment
             of criminal moncray penalties 9111be due during: the period of imprisonment. All cirninaf monetary penaltic;. except gore payments mxdc
             through the Federal Bureau of Prisons' Inmatc F~nsncrslResponsibility Program, arc made to the clerk of the court, unless otherwise directed
             by the court, h e probar~onofficer, or the United Srares erromey.
                                                                                                                                                 11
             The defendant shall receive credit for all payments previously made toward any criminal monetisry penaltics impostd.



                     Joint and Several

                     Case Number, Defendant Name,and Joint and Several Amount*




                                                                                                                                         See ~~ktinuation
                     The dcfcndsnt shall pay the cost of prosecurion.                                                                    Page
                                                                                                                                                      1
                     The defendant shall pay the foIlowing court cost(s):

                     The defendanr shall forfeit the defendanr's inthest in the following property to the United States:
                 See attached "Continuation of Forfeiture" Page.              '   .




             Paymenu shall be appl/edin rhe following order: (1) +ssessmcnt, (2) rcstirution principal (3) restiprian imeresr, (4) fine principal,
             (5) commumry restiturlon, (6) fine morest (7) penalues, and (8) cosrs, Including cost of(prosecut~onsnd coun costs.                      ,
     -                        .   "                                -   9




f,   F
         :-,       YL.1.2004          4 :16PM    US ATTORNEY    YRKIMA
,              ,          '

                   -* i                                                                                           \


                   Continuation Page
          '        CASE NUMBER 2.03CR06043-001                                                                            -
                                                                                                              ~ u d g m ~ n rPage 7 of   7
                   DEFENDANT: Jill L,Beny
                                                                                                                      I




                                                           Continuation of Forfeiture

                     The defendant agrees to the entry of a forfeiture money judgment against her in the sum of moiey equal to
                     $32,451 -91 in United States currency,rep~esentingthe amount of gross proceeds obtained as a result of the
                     Theft Concerning Programs Receiving Federal Funds, in violation of 1S U.S.C.1 666,all pursuant to 18
                     U.S.C. 982(2)(A) and 28 U.S.C. 5 2461(c). The defendant hereby agrees to execute any and all fonns and
                     pleadings necessary to effectuate such forfeiture and money judgment.
                                                                              1

      2'                                                                                      I
                                      NATIONALSCIENCE FOUNDATION
- *                                        4201 WILSON BOULEVARD
                                          ARLINGTON,VIRGINIA 22230                            I




            OFFICE OF THE
           DEPUTY DIRECTOR




       Alex-B. Hernandez, III   .'
       Hernandez Law Finn                                            .   .
       4 "D" Street, SE
       Quincy, WA 98848


               Re: Debarment of Jill L. Berry


       Dear Mr. Hernandez:

       On January 3 1,2005, the National Science Foundation CWSF") sent you and Ms. ~ e a ~do t i k e
       of Proposed Debarment in which NSF proposed to debar Ms. Berry from directly or indirectly
       obtaining the benefits of Federal grants for a period of two years. The Notice sets fort$ in detail
       the circumstances giving rise to NSF's decision to propose Ms. Berry's debarment. Specifically,
       NSF indicated in the Notice that the proposed debarment is based upon Ms. Bemy's conviction of
       theft. In that Notice, NSF provided Ms. Berry with thirty days to respond to the proposed
       debarment.

       Over thirty days have elapsed and NSF has not received a response. Accordingly, Ms.{Berryis
       debarred until January 3 1,2007. Debarment precludes Ms. Berry fiom receiving Federal
       financial and non-financial assistance and benefits under non-procurement Federal programs and
       activities unless an agency head or authorized designee makes a determination to grant an
       exception in accordance with 45 CFR Section 620.2 15. Non-procurement transactions include
       grants, cooperative agreements, scholarships, fellowships, contracts of assistance, loans,
                                                                                               I
                                                                                                  loan
       guarantees, subsidies, insurance, payments for specified use, and donation agreements.

       In addition, Ms. Berry is prohibited f?om receiving Federal contracts or approved subcontracts
       under the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the pe*od of this
       debarment. 45 CFR Section 620.1 10(c). During the debarment period, Ms. Berry may not have
       supervisory responsibility, primary management, substantive control over, or critical influence
       on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
       Federal Government.
                                                                                            ,!

If you of Ms. Berry have any questions regarding the foregoing, please contact
Assistant General Counsel, National Science Foundation, Office of the General Counsel, 4201
Wilson Boulevard, Room 1265, Arlington, Virginia, 22230.                           .         I!




                                                  Sincerely,                       .,   .




                                                  Deputy Director                                 ..   .




cc: Jill L. Berry
